                                                       NATIONAL SCIENCE FOUNDATIOF:
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

 Case Number: I03080032                                                               II          Page 1 of I



          I!
               During an OIG proactive review of 2001 awards for workshops, conferences and symposia to
               I
               assess compliance with applicable laws, regulations and award conditions, OIG requested
               financial information from the awardee1 for a 2001 conference grant award.2 After reviewing the
               material submitted, we identified several issues involving this award and the program income
               received as a result of the workshop registration fees. Specifically, the issues included inflated
               travel expenses, funds misappropriated to cover employee travel, and an equipment purchase.
               The preliminary inquiry was transferred to the civil /criminal section for further investigation.

               OIG requested additional documentation from the awardee to identify what costs were covered
               by the NSF grant and what expenses were covered by the program income received.

               After interviewing parties associated with the administration of grant funds both at NSF and the
               awardee company and reviewing all relevant financial documentation submitted by the awardee,
               the awardee determined that it should reimburse the government approximately $8,705.49.

               OIG received (2) cashier's checks totaling $8,706.39 from the awardee. Accordingly, this case is
               closed.




      .        ' redacted
               * rkdacted


NSF OIG Form 2 (1 1/02)
